Report No. D-2007-117          August 20, 2007




   Missile Defense Agency Purchases for and
           from Governmental Sources
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DFAS                  Defense Finance and Accounting Service
DFARS                 Defense Federal Acquisition Regulation Supplement
D&F                   Determinations and Findings
FAR                   Federal Acquisition Regulation
FCR                   Funds Certification Request
FMR                   Financial Management Regulation
GSA                   General Services Administration
IPAC                  Intra-Governmental Payment and Collection
MDA                   Missile Defense Agency
MIPR                  Military Interdepartmental Purchase Request
OIG                   Office of Inspector General
OMB                   Office of Management and Budget
O&M                   Operation and Maintenance
RDT&E                 Research, Development, Test, and Evaluation
U.S.C.                United States Code
                            INSPECTOR GENERAL

                           DEPARTMENT OF DEFENSE

                              400 ARMY NAVY DRIVE

                         ARLINGTON, VIRGINIA 22202-4704





                                                                           August 20, 2007

MEMORANDUM FOR DIRECTOR, MISSILE DEFENSE AGENCY
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Report on Missile Defense Agency Purchases for and from Govermnental
         Sources (Report No. D-2007-117)


      Weare providing this report for information and use. We considered
management comments on a draft ofthis report when preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The comments from the Executive Director of the Missile Defense Agency were
responsive. As a result of management comments and a change in our legal opinion, we
deleted Recommendation 1.b. and the section on the Appropriation Classification in our
finding. We renumbered Recommendation 1.a. to 1. The comments from the Director
for Corporate Reporting Standards and Compliance of the Defense Finance and
Accounting Service were responsive to the recommendation.

        We appreciate the cOUitesies extended to the staff. Questions should be directed
to Ms. Monica M. Harrigan at (703) 325-5930 (DSN 221-5930). See Appendix G for the
report distribution. The team members are listed inside the back cover.

                              By direction ofthe Deputy Inspector General for Auditing:

                                      /~~-----_..

                                        pau~anetto,      CPA

                               Assistant Inspector General and Director

                                 Defense Financial Auditing Service

               Department of Defense Office of Inspector General
Report No. D-2007-117                                                   August 20, 2007
  (Project No. D2006-D000FH-0160.000)

      Missile Defense Agency Purchases for and from Governmental 

                                Sources 


                                Executive Summary 


Who Should Read This Report and Why? Members of Congress, the Director of the
Missile Defense Agency, and the Director of Defense Finance and Accounting Service
should read this report. The users of this audit report will benefit from the review of
controls over the Missile Defense Agency purchases for and from other governmental
sources and gain information that can improve public accountability and decision
making.

Background. This is the fifth in a series of reports discussing DoD use of interagency
and interservice support. The prior reports discussed the lack of adequate internal
controls over Military Interdepartmental Purchase Requests (MIPRs) at the Marine
Corps, the Navy, the Army, and the Special Operations Command. This report discusses
internal controls over the use of interagency and interservice support at the Missile
Defense Agency. In accordance with Public Law 108-375, the Ronald W. Reagan
National Defense Authorization Act of FY 2005, Section 802, “Internal Controls for
Department of Defense Procurements Through [General Services Administration] GSA
Client Support Centers,” the DoD Office of Inspector General and the General Services
Administration conducted an interagency audit of DoD purchases made by the General
Services Administration. In that audit, the DoD Office of Inspector General determined
that regulations were unclear and found that mismanagement and lack of acquisition
planning for the funds transferred to the General Services Administration caused DoD
funds, between $1 billion and $2 billion, to either expire or otherwise be unavailable to
support DoD operations. That finding prompted the Office of the Inspector General
management to conduct this series of audits on the subject.

Results. The Missile Defense Agency did not have adequate internal controls over
governmental purchases. Specifically, the Missile Defense Agency did not properly
manage the outgoing and incoming MIPR processes. The internal controls were
inadequate because the Missile Defense Agency did not follow applicable MIPR
regulations. As a result, the Missile Defense Agency personnel could not ensure that all
purchases were in the best interest of the Government and complied with Federal, DoD,
and the Missile Defense Agency regulations as well as public laws. In addition, the
Defense Finance and Accounting Service did not timely respond to audit request for
information and documentation for the Missile Defense Agency disbursements.

The Director of the Missile Defense Agency should direct the Business Management
Office to develop procedures and controls that ensure required data and supporting
documents are completed and reviewed before a MIPR is certified; develop procedures
and controls to ensure that MIPR disbursements and reimbursable billings are verified
against source documents and all documentation is maintained; and develop procedures
and controls to ensure recorded commitments, obligations, and deobligations are valid
and timely. The Director of Defense Finance and Accounting Service should develop
procedures and controls to ensure that the Defense Finance and Accounting Service
centers and field offices make audit information and documentation readily available for
timely review. (See finding)

Management Comments and Audit Response. The Executive Director of the Missile
Defense Agency concurred with one of the recommendations and nonconcurred with the
other recommendation. In response to management comments and a change in our legal
staff opinion, the recommendation that the Executive Director nonconcurred with has
been deleted as well as the section on the Appropriation Classification in the finding.
The Director for Corporate Reporting Standards and Compliance of the Defense Finance
and Accounting Service concurred with the recommendation providing an estimated
completion date for the corrective action. No additional comments are required.




                                            ii
Table of Contents 


Executive Summary 	                                                     i


Background 	                                                            1


Objectives 	                                                            2


Review of Internal Controls 	                                           2


Finding
      Adequacy of the Missile Defense Agency Internal Controls Over

          Governmental Purchases                                        3


Appendixes
      A. Scope and Methodology 	                                       14 

      B. Prior Coverage 	                                              16 

      C. Glossary of Technical Terms 	                                 18 

      D. MIPRs Reviewed 	                                              21 

      E. MIPRs Fund Citation 	                                         23 

      F. 	 Summary of Management Comments on the Finding and Audit 

             Responses                                                 25
      G. Report Distribution 	                                         30 



Management Comments
      Missile Defense Agency
                                          31 

      Defense Finance and Accounting Service 
                         41 

Background 

    In accordance with Public Law 108-375, the Ronald W. Reagan National Defense
    Authorization Act of FY 2005, Section 802, “Internal Controls for Department of
    Defense Procurements Through [General Services Administration] GSA Client
    Support Centers,” DoD Office of Inspector General (OIG) and the GSA
    conducted an interagency audit of DoD purchases made by GSA. In DoD OIG
    Report No. D-2005-096, “DoD Purchases Made Through the General Services
    Administration,” July 29, 2005, DoD OIG determined that regulations regarding
    such purchases were unclear and misunderstood. The DoD OIG also determined
    that the mismanagement of funds and lack of acquisition planning for funds
    transferred to GSA caused between $1 billion and $2 billion of DoD funds to
    either expire or otherwise be unavailable to support DoD operations. Because of
    this finding, DoD OIG issued a series of reports that discuss DoD interagency
    support.

    This is the fifth in the series of reports discussing DoD use of interagency and
    interservice support. It discusses the internal controls over the Missile Defense
    Agency (MDA) Military Interdepartmental Purchase Requests (MIPRs). The first
    report in the series, DoD OIG Report No. D-2006-102, “Marine Corps
    Governmental Purchases,” July 31, 2006, discusses the lack of adequate internal
    controls over outgoing and incoming MIPRs at the Marine Corps. The second,
    third and fourth reports in the series discuss the internal controls over Department
    of the Navy MIPRs, Department of the Army MIPRs and Special Operations
    Command MIPRs respectively.

    Federal Regulation. Section 1535, United States Code, (U.S.C.) title 31,
    “Agency Agreements,” January 2, 2001, allows the head of an agency to place an
    order with another agency for goods or services if those goods or services are
    available, it is in the best interest of the U.S. Government, the other agency can
    fill the order, and the order cannot be provided by contract as conveniently or
    cheaply by a commercial enterprise.

    The Federal Acquisition Regulation, Subpart 17.5, “Interagency Acquisitions
    Under the Economy Act,” defines an interagency acquisition as one agency
    obtaining supplies and services from another agency. The regulation states that
    the procedures for Economy Act orders between major organizational units within
    an agency are to be addressed in agency regulations.

    DoD Military Interdepartmental Purchase Requests. The military
    interdepartmental purchase request, DD Form 448, is issued by one Military
    Service to another to procure services, supplies, or equipment. The supplying
    Service provides a DD Form 448-2, “Acceptance of MIPR,” agreeing to provide
    the requested services or supplies. DoD may also issue the MIPR to non-DoD
    agencies. DoD typically issues MIPRs under the authority of the Economy Act,
    funded on a direct citation or reimbursable basis.




                                         1

Objectives 

     Our overall audit objective was to evaluate the internal controls over MDA’s
     purchases for and from Governmental sources, excluding the General Services
     Administration, Department of the Treasury, Department of Interior, and the
     National Aeronautics and Space Administration. Specifically, we examined
     MDA’s processes for initiating, preparing, obligating, disbursing, and accepting
     MIPRs. We examined whether MDA’s purchase requirements were clearly
     defined and whether funds were properly used and tracked. We also reviewed the
     adequacy of the managers’ internal control program as it related to our audit
     objectives. See Appendix A for a discussion of the scope and methodology.
     Appendix B lists prior coverage related to the objectives. Appendix C defines
     terms used in the report.


Review of Internal Controls
     Using guidance defined by DoD Instruction 5010.40, “Managers’ Internal Control
     (MIC) Program Procedures,” January 4, 2006, we identified internal control
     weaknesses for MDA. MDA did not have adequate internal controls to ensure
     that funds were properly obligated, expensed, and disbursed. Implementing
     Recommendation 1. will improve MDA internal controls over MDA’s MIPR
     purchases. We will provide a copy of the report to the senior MDA official
     responsible for management controls.




                                        2

           Adequacy of the Missile Defense Agency
           Internal Controls over Governmental
           Purchases
           MDA did not have adequate internal controls over governmental
           purchases. Specifically, MDA did not properly manage the outgoing and
           incoming MIPR processes. The internal controls were not adequate
           because MDA did not follow Federal, DoD, and MDA regulations. As a
           result, governmental purchases made by and for MDA:

                   •	 may not have been in the best interest of the U.S.
                      Government; and

                   •	 did not comply with Federal, DoD, and MDA regulations.

           In addition, the Defense Finance and Accounting Service (DFAS) did not
           timely respond to audit request for information and documentation for
           MDA disbursements.


Missile Defense Agency MIPRs
    MDA provided a universe of open MIPRs for the period, March 31, 2004,
    through March 31, 2006. MDA generated outgoing MIPR data from two separate
    systems. Transactions occurring before December 1, 2005, came from the
    Defense Joint Accounting System and transactions occurring after December 1,
    2005, came from the Standard Operation and Maintenance Army Research and
    Development System. MDA generated incoming MIPR data from the MDA
    funds document database and the Standard Operation and Maintenance Army
    Research and Development System. We reviewed 47 MIPRs with a total value of
    $60.3 million. Specifically, we reviewed 24 outgoing MIPRs totaling
    $27.9 million and 23 incoming MIPRs totaling $32.4 million. Appendix D lists
    the MIPRs we reviewed and the weaknesses we identified. Appendix E identifies
    the MIPRs fund citation.


    Outgoing MIPRs
    MDA did not have adequate internal controls over its outgoing MIPRs. We
    reviewed 24 MIPRs totaling $27.9 million that MDA had issued to other
    governmental organizations. During the process of initiating, preparing, and
    executing the 24 MIPRs, MDA personnel did not follow applicable regulations.




                                       3

MIPR Initiation
As the requesting agency, MDA was responsible for conducting market research
and determining that MIPR purchases were in the best interest of the Government
and justified under the applicable statute.

Market Research. For 24 MIPRs totaling $27.9 million, MDA either did not
provide evidence of market research or did not perform market research. The
Federal Acquisition Regulation (FAR) Subpart 7.1, “Acquisition Plans,”
March 2005, requires agencies to conduct market research for all acquisitions in
order to promote and provide for:

       •	 acquisition of commercial items, and

       •	 full and open competition.

Furthermore, FAR Part 10, “Market Research,” March 2005, prescribes the
policies and procedures for conducting market research to select the most suitable
approach to acquire, distribute, and support supplies and services. To accomplish
this objective agencies must:
        •	 ensure that legitimate needs are identified and tradeoffs evaluated to
            acquire items that meet those needs,

       •	 conduct market research appropriate to the circumstances, and

       •	 use the results of market research to determine if there are sources
          capable of satisfying the agency’s requirements.

MDA did not provide evidence of market research for 5 of the 24 MIPRs, totaling
$4.5 million, and did not perform market research for 19 of the 24 MIPRs totaling
$23.4 million. MDA stated it does conduct market research in the acquisition of
commercial items and services; however, if the acquisition is recurring, market
research is not done. For example, MDA provided funds for items and services
such as a perimeter security surveillance system and joint analysis display
environment support, valued at $6.9 million and $5 million, respectively.
Because MDA labeled these items as recurring acquisitions, they considered
market research as “not applicable.” Without conducting market research, MDA
could not ensure the fulfillment of the Government’s needs or that full and open
competition existed.

Determinations and Findings or Support Agreements. For 22 MIPRs totaling
$23.9 million, MDA did not provide a Determinations and Findings document
(D&F) or a Support Agreement. The FAR, Subpart 17.5, “Interagency
Acquisitions Under the Economy Act,” and DoD Financial Management
Regulation (FMR), volume 11A, chapter 3, “Economy Act Orders,” April 2000,
require a D&F to support each Economy Act order that uses interagency support
capabilities. To comply with the D&F requirements, the requesting agency
should document that orders are in the best interest of the U.S. Government and
that the Government entity requesting the goods or services cannot obtain them as



                                    4

conveniently or economically by contracting directly with a commercial
enterprise.

Furthermore, DoD FMR, volume 11A, chapter 3, states that a signed
DD Form 1144, “Support Agreement,” documents the required determination by
both the requesting and the supplying activity for interservice support within
DoD. MDA issued 22 MIPRs totaling $23.9 million to other DoD organizations;
however, none of the 22 MIPRs was supported by a support agreement. For
example, MDA issued a MIPR valued at $6.9 million, without a support
agreement, to procure a perimeter security surveillance system using an Army
contract. Because there was no support agreement to document the required
determination, MDA could not determine whether the MIPR purchases were in
the best interest of the Government.

MIPR Preparation
As the requesting organization, MDA was responsible for properly completing
the DD Form 448 when issuing MIPRs to the accepting activity. MDA should
properly complete DD Form 448 to ensure compliance with Federal and DoD
regulations. However, MDA did not properly complete the DD Form 448 for the
24 MIPRs reviewed. The 24 MIPRs had one or more of the following
weaknesses.

Delivery Requirements. For 18 MIPRs totaling $21.1 million, MDA did not
complete the DD Form 448 in accordance with 31 U.S.C. 1501 and with Defense
Federal Acquisition Regulation Supplement (DFARS) 253.208, “Required
Sources of Supplies and Services,” August 31, 2000. DFARS 253.208 requires
that the agency clearly state the required period of performance in each MIPR,
taking into consideration administrative lead times. However, the 18 MIPRs did
not specify the period of performance. Without the period of performance, MDA
would have difficulty determining whether the supplying activity was performing
the MIPR in accordance with the original agreement. Further, the lack of the
period of performance may have limited MDA’s ability to comply with the Bona
Fide Needs Rule.

Delegation of Fiduciary Authority. MDA did not provide evidence that
individuals certifying the MIPRs had the authority to administer funds.
DoD FMR, volume 3, chapter 8, “Standards for Recording and Reviewing
Commitments and Obligations,” June 2005, and chapter 15, “Receipt and Use of
Budgetary Resources, Execution Level,” December 1996, state that a MIPR must
be considered as a commitment until validly obligated and must be signed by a
person authorized to reserve funds, that is, officials responsible for administrative
control of funds. Further, DoD FMR, volume 14, chapter 1, “Administrative
Control of Appropriations,” October 2002, requires that the authority be delegated
in writing. However, for 24 MIPRs totaling $27.9 million, MDA could not
provide documentation identifying that the individuals signing the DD 448 and its
amendments had the authority to administer funds and certify fund availability.
For example, MDA personnel certified $4.3 million in funds for 14 MIPRs;
however, these individuals did not exist on MDA’s non-classified document as a
certifying official. Without fiduciary authority, the MIPR and amendment
procurement funds are not chargeable to MDA.


                                      5

Segregation of Duties. MDA did not maintain proper segregation of duties for
processing the Fund Certification Request (FCR) in accordance with OMB
Circular A-123, “Management’s Responsibility for Internal Control,”
December 21, 2004. According to the Office of Management and Budget (OMB)
Circular A-123, separation of duties and responsibilities must be maintained for
authorizing, processing, and reviewing transactions. MDA’s outgoing MIPR
process segregated roles and responsibilities for the fund certification process as
follows:

       •	 The program manager, in coordination with the performing agency,
          generates requirement documents, interagency agreements, and a D&F
          as appropriate. The program manager signs the FCR; and provides all
          supporting documentation to the budget analyst and requests release of
          funds for the acquisition.

       •	 The budget analyst, in the Budget Execution Division, checks for the
          availability of funds and whether funds meet the criteria for purpose,
          time, and amount. If the budget analyst deems it appropriate, they will
          create, sign, and submit an FCR. The budget analyst electronically
          transmits the FCR along with the required supporting documentation
          to the program manager, the competition advocate (as necessary), the
          director of budget execution and funds control, and the funds
          certifying official.

       •	 After certifying the availability of funds, the certifying official will
          digitally sign the FCR. Electronic notification is sent to the budget
          analyst indicating that the documents have been signed.

However, MDA personnel did not follow procedures for fund certification for
13 MIPRs totaling $10.5 million. For example, the same individual signed the
FCR as budget analyst and as certifying official for 9 of the 13 MIPRs. Without
proper segregation of duties, MDA did not comply with its own operating
procedures or OMB Circular A-123 and increased the risk of MDA personnel
committing errors or fraud.

MIPR Execution
As the requesting agency, MDA was responsible for managing MIPR funds and
documentation. However, MDA did not adequately perform these responsibilities
for 15 of the 24 MIPRs. The 15 MIPRs had one or more of the following
weaknesses.

Commitments. DoD FMR volume 3, chapter 8, “Standards for Recording and
Reviewing Commitments and Obligations,” June 2005, states that the signed
DD Form 448 is a commitment until validly obligated. The amount to be
recorded as a commitment is the estimated procurement cost set forth in the
commitment documents. The date the commitment document is signed by an
authorized official determines the accounting period in which the commitment is
to be recorded. However, MDA posted the commitment for a MIPR valued at
$100,000 in two separate journal entries, 175 and 246 days after signing the


                                      6

DD Form 448. In another instance, MDA recorded a $100,000 MIPR amendment
without a signed DD Form 448. MDA recorded the commitment without
certifying its fund availability. The timely posting of commitments in the
accounting system reserves funds for a particular purchase, and helps track
available funds. By not recording commitments timely in the accounting system
and not obtaining certification of funds available, MDA increased its risk of
potential Antideficiency Act violations.

Obligations. For 12 of the 24 MIPRs totaling $19.5 million, MDA did not timely
record obligations or else made duplicate obligations. In accordance with DoD
FMR, volume 3, chapter 8, an agency must record an obligation in the accounting
system within 10 calendar days following the day the obligation occurred. It
further states that an obligation shall be recorded only when supported by
documentary evidence of the transaction. However, for these 12 MIPRs, MDA
recorded obligations from 12 to 220 days after receipt of MIPR acceptance or
contract modification. For 1 of the 12 MIPRs, MDA duplicated an obligation of
$317 in its accounting system. This error occurred because MDA obligated the
funds without a contract modification. MDA personnel were not aware of the
error until the audit team brought it to their attention. By not recording the
obligations in the accounting system in a timely manner or when posting
obligations without the proper documentation, MDA increased its risks for errors
and potential Antideficiency Act violations.

Deobligations. DoD FMR, volume 11A, chapter 3, states that funds must be
deobligated before the end of the appropriation’s period of availability. It also
states that funds should be deobligated commensurate with goods and services not
provided or anticipated from an authorized contract with another organization.
MDA either did not timely deobligate funds or deobligated funds without proper
authorizing documentation.

       Untimely Deobligation. For two MIPRs, MDA did not deobligate $6,728
of excess funds after it received the DD Forms 448-2 from the performing
agencies. The DD Forms 448-2 notified MDA that the excess funds were not
required to fill the MIPR purchases. Therefore, MDA should have withdrawn the
funds in accordance with DoD FMR.

        Unauthorized Deobligation. MDA deobligated $5,061 for three MIPRs
without an authorizing amendment, DD Form 448-2. For example, MDA
deobligated $317 for one MIPR without a DD Form 448-2; and, more than a year
later, MDA re-obligated the $317. According to MDA personnel, the
deobligations from the accounting system occurred during their internal
reconciliation of non-active MIPRs.

By not complying with the DoD FMR and by deobligating funds untimely or
without authorizing amendment, MDA has increased its risk for errors or for
incurring an Antideficiency Act violation.




                                    7

Disbursements
MDA, as the requesting agency, and DFAS, as the disbursing office, were
responsible for ensuring that MIPR disbursements were supported. We reviewed
24 MIPRs totaling $27.9 million that had one or more disbursement transactions
in the MDA accounting records. MDA did not adequately support disbursements
for 23 of the MIPRs, totaling $26.7 million. Additionally, DFAS did not timely
respond to our audit request for the disbursement documentation for 8 of the
MIPRs, totaling $4.5 million.

        Validation of MDA Source Data. DoD FMR, volume 5, chapter 33,
“Departmental Accountable Officials, Certifying Officer and Review Officials,”
April 2005, requires accountable officials to be responsible for supporting their
certifying officers with timely and accurate data to ensure supportable payments
and to minimize erroneous payments. Additionally, DoD FMR, volume 6A,
chapter 2, “Financial Reports Roles and Responsibilities,” March 2002, requires
that DoD Components perform periodic validation of source data for
commitments and obligations. It also states that the validations should include
reviews of contracts and other procurement actions and receipts and acceptances
to ensure the integrity and currency of the source data. However, MDA did not
provide receiving reports and other supporting documents for the 23 MIPRs,
totaling $26.7 million.

By not validating disbursements against source data, MDA did not comply with
DoD FMR requirements. MDA should implement policies and procedures to
verify that disbursements incurred on MIPRs were valid, accurate, and
supportable.

       DFAS Timely Response. DFAS did not timely respond to our audit
requests for information and documentation for disbursements processed through
the Vendor Pay and Intra-Governmental Payment and Collection (IPAC) System.
DoD Instruction 7050.3, “Access to records and information by the Inspector
General, Department of Defense,” April 2000, requires heads of DoD
Components to establish procedures to ensure that DoD Office of Inspector
General requests for access to records or information relating to an audit are
granted immediately. However, DFAS did not appear to have established such
procedures. DFAS should have provided information and documentation to
support disbursements for the 8 MIPRs totaling $4.5 million in a timelier manner.

               Vendor Pay System Documentation. DFAS processed 3 MIPRs
totaling $257,440 with 15 disbursement transactions through the Vendor Pay
System. However, DFAS did not timely provide supporting documentation for
the three MIPRs. For example, on October 24, 2006, we furnished DFAS with
contract numbers and transaction information for two MIPRs and received the
supporting documentation 168 days later on April 9, 2007, to complete our
review.

               IPAC System Documentation. DFAS processed 9 MIPRs
totaling $11.5 million with 226 disbursement transactions totaling $11.4 million
through the IPAC System. We received complete documentation for 4 of the
9 MIPRs, totaling $7.2 million, timely. However, DFAS did not timely provide


                                     8

information and documentation for the remaining 5 MIPRs totaling $4.3 million.
DFAS took approximately 240 days to provide all of the requested information
and documentation.

By not timely providing information and documentation for our review, DFAS
did not comply with DoD Instruction 7050.3. DFAS should develop procedures
to ensure that DFAS centers and field offices make audit information and
documentation readily available for review.


Incoming MIPRs
MDA did not have adequate internal controls over the incoming MIPR process.
We reviewed 23 incoming MIPRs totaling $32.4 million that MDA had received
from other governmental organizations. MDA accepted improper MIPRs and did
not properly administer the MIPRs.

MIPR Acceptance
As the accepting agency, MDA was responsible for properly accepting incoming
MIPRs. However, MDA did not follow applicable regulations when accepting
MIPRs.

Justification Documents. In accordance with the DFARS 217 Subpart 504,
“Ordering Procedures,” March 25, 1999, MDA was responsible for ensuring that
any request for goods or services from another agency had a D&F document
attached to the DD Form 448, “Military Interdepartmental Purchase Request.”
DoD Instruction 4000.19 states that DoD activities can provide requested support
to other DoD activities when the requesting activity determines it would be in the
best interest of the United States Government, and the head of the supplying
activity determines capabilities exist to provide the support without jeopardizing
assigned missions. These determinations are signified by signing a support
agreement (blocks 8 and 9 on DD form 1144) – no further written determinations
are required for agreements between DoD activities. However, MDA accepted
22 MIPRs, totaling $32.1 million, from DoD Components and Federal agencies
without a D&F document or a signed Support Agreement.

Use of MIPRs. According to DoD Instruction 4000.19, support is reimbursable
to the extent that the servicing agency actually incurred costs to provide the goods
or services requested. In addition, DoD FMR, volume 11A, Chapter 3, states
actual costs include all direct costs attributable to providing the goods or services.
However, MDA accepted three MIPRs totaling $6,210 for employee performance
awards on a reimbursable basis from other DoD agencies. According to MDA,
these employees transferred from other DoD agencies; and the costs of awards
were not associated with goods or services provided by MDA to the requesting
agencies. Therefore, we consider that the use of MIPRs for employees’
performance awards was inappropriate and the requesting agencies should have
paid awards directly to the employees.



                                      9

Completion of Forms. For 6 MIPRs totaling $14 million, MDA provided
incomplete DD Forms 448-2. DFARS 208.70 requires that the acquiring
departments formally accept a MIPR by DD Form 448-2, “Acceptance of MIPR,”
in writing before expiration of the funds. However, MDA accepted two MIPRs
totaling $12.4 million without the written or electronic signature of the authorized
official in block 16. In addition, according to DFARS 253.208, MDA was
responsible for completing all applicable blocks on the DD Form 448-2.
However, MDA did not complete all applicable blocks for four MIPRs, totaling
$1.7 million:

       •	 block 6, which requires the specific terms (such as reimbursable or
          direct citation of funds) under which the MIPR is being accepted, and

       •	 block 13, which requires (a) justification, by MIPR line item, for any
          additional funds required and (b) appropriation and subhead data.

MIPR Administration
As the accepting agency, MDA was responsible for properly administering
incoming MIPR work and related funds. However, MDA did not properly
administer 14 of the 23 incoming MIPRs we reviewed. The 14 MIPRs had one or
more of the following weaknesses.

Timely Acceptance. MDA was responsible for ensuring that it properly accepted
MIPRs within 30 days of receipt of the requesting activity’s MIPR request.
DFARS Subpart 208.7004-2 states acquiring activities should formally accept a
MIPR, by DD Form 448-2, “Acceptance of MIPR,” as soon as practicable, but no
later than 30 days after receipt of the DD Form 448. However, MDA could not
provide evidence of acceptance within 30 days for 9 of the 23 MIPRs totaling
$13.8 million, it received. For example, MDA received a MIPR valued at
$246,098 that was digitally certified by the requesting agency on July 8, 2005.
MDA accepted the MIPR on September 30, 2005, approximately 84 days after the
requesting agency certified the MIPR. Because MDA did not maintain a record
of the receipt date, we could not determine whether the acceptance was within
30 days of receipt.

Formal Acceptance. MDA did not formally accept two MIPRs, totaling
$10 million, in accordance with the DoD FMR. DoD FMR volume 11A,
chapter 1, “General Reimbursement Procedures and Supporting Documentation,”
March 1997, states that orders must be supported by documented evidence of a
formal offer and acceptance between the grantor and grantee of the order.
However, MDA did not issue a DD 448-2 for the two MIPRs; instead, MDA
accepted the MIPRs on the same DD Form 448 issued by the requesting
department. For example, for one of the MIPRs, valued at $10 million, MDA
accepted the MIPR using a signature stamp; and MDA’s authorizing official
neither signed nor dated the document. As a result, MDA could not provide
documented evidence of a formal acceptance in accordance with DoD FMR
requirements.




                                     10 

           Reimbursable Billing. MDA files did not have the source documents, such as
           invoices, as required by DoD FMR, volume 11A, chapter 1, for 5 reimbursable
           MIPRs totaling $196,210. In accordance with DoD FMR, volume 11A, chapter 1,
           DoD Components performing work or services on a customer order must bill the
           requesting DoD Component, other Federal agency, or the public for earned
           reimbursements (performance of work or services, payments to contractors, or
           delivery from inventory) within 30 calendar days after the month in which
           performance occurred. The payment due date must not be more than 30 calendar
           days from the date of the invoice. However, MDA could not provide
           documentation to support that it billed the requesting agencies for reimbursements
           it actually earned.


           Missile Defense Agency Directives
           MDA issued directives to implement the MIPR process in accordance with DoD
           FMR. We found MDA guidance sufficient. MDA directives included:

                   •	 MDA Directive 7200.01, “Funds Certification Request Process,”
                      April 5, 2006, provides the policy and procedures for accomplishing
                      the MDA Funds Certification Request. The guidance formally
                      documents the review approval process to ensure that funds executed
                      by MDA meet the fiscal requirements contained in the DoD FMR and
                      the underlying legal requirements contained in the Code of Federal
                      Regulations.

                   •	 MDA Directive 4000.01, “Interagency Acquisition Under the
                      Economy Act,” July 28, 2004, implements policy, responsibilities, and
                      procedures for accomplishing interagency acquisition under the
                      Economy Act within MDA. 1

                   •	 Policy Memorandum No. 31, “Proper Use of Non-DoD Contracts,”
                      February 4, 2005, provides MDA procedures for the use of non-DoD
                      contract vehicles when procuring supplies and services on or after
                      January 1, 2005, for amounts greater than the simplified acquisition
                      threshold.

                   •	 Strategic Defense Initiative Organization Directive 7200, “Purchase
                      Request Process,” April 1993. This guidance addresses MIPRs for
                      “S” Program Management Agreements managed directly by the
                      Strategic Defense Initiative Organization and procured from other
                      Government Agencies (DoD and non-DoD). 2
           MDA personnel did not follow the directives during the MIPR process. They did
           not prepare the required MIPR documents. This occurred because MDA did not
1
    This regulation updated MDA Directive 4000, “Interagency Acquisition Under the Economy Act,”
    December 1999
2
    This regulation was superseded by MDA Directive 7200.01, “Funds Certification Request Process,”
    April 5, 2006



                                                    11 

    have standard operating procedures to ensure personnel involved in the MIPR
    process complied with MDA directives. The lack of standard operating
    procedures resulted in weak internal controls over MIPR management and non-
    compliance with the DoD FMR.


Conclusion
    Adequate internal controls are critical to ensure the proper management of
    MIPRs. The lack of adequate internal controls at MDA over the MIPR process
    resulted in the violations of public law, and non-compliance with Federal, DoD,
    and MDA regulations. MDA and DFAS must improve internal controls over the
    MIPR process and audit support process by establishing standard operating
    procedures that will enforce Federal, DoD, and MDA regulations.


Management Comments on the Finding and Audit Response
    A summary of management comments on the finding and our audit response are
    in Appendix F.


Recommendations and Management Comments
    Deleted and Renumbered Recommendations. As a result of management
    comments and further analysis of facts on which we based our legal opinion, we
    deleted the section on the Appropriation Classification in our finding and
    Recommendation 1.b. We renumbered Recommendation 1.a. to 1.

    1. We recommend that the Director, Missile Defense Agency direct the
    Deputy Director, Business Management to develop and promulgate standard
    operating procedures that will incorporate DoD Financial Management
    Regulation and Missile Defense Agency regulations for processing Military
    Interdepartmental Purchase Requests. The standard operating procedures
    should at a minimum include procedures and controls:

           a. Such as a checklist that ensures all required data and supporting
    documents are developed and appropriately reviewed before a Military
    Interdepartmental Purchase Request is certified for issuance or acceptance.

            b. That ensure the validity and accuracy of Military
    Interdepartmental Purchase Request disbursements and reimbursable
    billings are verified against source documentation including support for the
    receipt of ordered goods and services, and that all documentation is
    maintained.




                                       12 

       c. Such as documentation of the receipt date that ensures the
timeliness of obligations and acceptances for all Military Interdepartmental
Purchase Requests issued and received.

       d. That ensure recorded commitments, obligations, and deobligations
are valid and timely.

Management Comments. The Executive Director of the Missile Defense
Agency concurred with the recommendation stating that the Missile Defense
Agency is developing procedures and controls to ensure all required data and
supporting documents are developed and appropriately reviewed before a Military
Interdepartmental Purchase Request is authorized for issuance and documentation
is appropriately maintained.

2. We recommend that the Director, Defense Finance and Accounting
Service develop procedures and controls that ensure the Defense Finance and
Accounting Service centers and field offices make audit information and
documentation readily available for timely review.

Management Comments. The Director for Corporate Reporting Standards and
Compliance of the Defense Finance and Accounting Service concurred with the
recommendation stating that Standards and Compliance will ensure audit
procedures are developed for timely retrieval of documentation upon auditors’
requests, and will include procedures for clearly understanding, executing, and
monitoring audit requests. He estimated December 1, 2007, as completion date
for the corrective actions.




                                   13 

Appendix A. Scope and Methodology 

           We conducted this performance audit from April 2006 through April 2007 in
           accordance with generally accepted government auditing standards. Those
           standards require that we plan and perform the audit to obtain sufficient,
           appropriate evidence to provide a reasonable basis for our findings and
           conclusions based on our audit objectives. We believe that the evidence obtained
           provides a reasonable basis for our findings and conclusions based on our audit
           objectives.

           We performed an audit of the MDA process for initiating, accepting, obligating,
           and disbursing MIPRs, interagency purchases, and their equivalents. We
           performed site visits at the MDA headquarters from May 31, through
           June 16, 2006, and interviewed fund administrators and comptroller office staff to
           learn the process used by MDA to execute these transactions. We developed a
           MIPR review checklist, which we based on criteria established in the FAR,
           DFARS, DoD FMR, MDA Directives and Instructions, and other criteria as
           applicable. We compared the actual MDA process with the relevant criteria to
           assist in identifying weaknesses in internal controls.

           We selected a judgmental sample from MIPR transactions, which were open
           during the period of March 31, 2004, through March 31, 2006. We reviewed
           24 MIPRs, totaling about $27.9 million 1 that MDA had issued to other
           Government sources. We also reviewed 23 MIPRs, totaling about $32.4 million 2
           that MDA had received from other Government sources. We requested and
           reviewed the supporting documentation for each transaction associated with the
           MIPRs selected. Specifically, we requested and reviewed the following (if
           available): DD Form 448 “Military Interdepartmental Purchase Request,”
           DD Form 448-2 “Acceptance of MIPR,” e-mail correspondence identifying
           requirements, travel authorizations and vouchers, Memorandums for the Record,
           Determination and Findings, support agreements, market research, invoices, and
           accounting data from the Standard Operation and Maintenance Army Research
           and Development System and Defense Joint Accounting System. We completed
           the MIPR review checklist for each MIPR selected in our sample.

           We visited DFAS Indianapolis, Indiana, August 28 through August 30, 2006. We
           interviewed personnel from the Accounting Office, IPAC, and Vendor Pay
           Department and collected supporting documentation for payments and collections
           associated with MIPR transactions reviewed at the MDA headquarters. We also
           requested and received information on the Mechanization of Contract
           Administration Service process and supporting documentation via e-mails from
           the DFAS Columbus personnel.



1
    The outgoing MIPRs reviewed included one MIPR issued to the General Services Administration for
    $3,814,000 and one MIPR issued to the Department of Interior for $215,167.
2
    The incoming MIPRs reviewed included two MIPRs received from the National Aeronautics and Space
    Administration with a total value of $190,000.



                                                   14 

Use of Computer-Processed Data. To achieve the audit objective, we relied on
computer-processed data extracted from the Defense Joint Accounting System,
Standard Operation and Maintenance Army Research and Development System,
IPAC, and the Mechanization of Contract Administration Service, provided
directly from MDA and DFAS personnel. We did not perform a formal reliability
assessment of the computer-processed data. We did not find significant errors
between the computer-processed data and MIPR source documents that would
preclude use of the computer-processed data to meet the audit objective or that
would change conclusions in this report.

Use of Technical Assistance. The Quantitative Methods Division of the
OAIG-AUD provided assistance. The Quantitative Methods Division selected a
random sample based on the data provided in the universe.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the Management of Interagency Contracting high-risk area.




                                   15 

Appendix B. Prior Coverage
    During the last 5 years, the Department of Defense Inspector General (DoD IG)
    has issued 17 reports discussing Intragovernmental transactions. Unrestricted
    DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.

DoD IG
    DoD IG Report No. D-2007-109, “Special Operations Command Governmental
    Purchases,” July 9, 2007

    DoD IG Report No. D-2007-075, “Department of the Army Purchases from
    Governmental Sources,” March 22, 2007

    DoD IG Report No. D-2007-062, “Department of the Navy Purchases for and
    from Governmental Sources,” February 28, 2007

    DoD IG Report No. D-2007-057, “Use and Controls over Military
    Interdepartmental Purchase Requests at the National Geospatial-Intelligence
    Agency,” February 13, 2007

    DoD IG Report No. D-2007-044, “FY 2005 DoD Purchases Through the
    Department of Interior,” January 16, 2007

    DoD IG Report No. D-2007-042, “Potential Antideficiency Act Violations on
    DoD Purchases Made Through Non-DoD Agencies,” January 2, 2007

    DoD IG Report No. D-2007-032, “Report on FY 2005 DoD Purchases Made
    Through the Department of the Treasury,” December 8, 2006

    DoD IG Report No. D-2007-023, “FY 2005 DoD Purchases Made Through the
    National Aeronautics and Space Administration,” November 13, 2006

    DoD IG Report No. D-2007-007, “FY 2005 DoD Purchases Made Through the
    General Services Administration,” October 30, 2006

    DoD IG Report No. D-2006-102, “Marine Corps Governmental Purchases,”
    July 31, 2006

    DoD IG Report No. D-2006-029, “Report on Potential Antideficiency Act
    Violations Identified During the Audit of the Acquisition of the Pacific Mobile
    Emergency Radio System,” November 23, 2005

    DoD IG Report No. D-2005-096, “DoD Purchases Made Through the General
    Services Administration,” July 29, 2005

    DoD IG Report No. D2003-095, “Financial Management: Accounting for
    Reimbursable Work Orders at Defense Finance and Accounting Service
    Charleston,” June 4, 2003


                                        16 

DoD IG Report No. D-2003-090, “Use and Control of Military Interdepartmental
Purchase Requests at the Air Force Pentagon Communications Agency,”
May 13, 2003

DoD IG Report No. D2003-005, “Readiness: DoD Use of the North Atlantic
Treaty Organization Maintenance and Supply Agency,” October 7, 2002

DoD IG Report No. D 2002-110, “Acquisition: Policies and Procedures for
Military Interdepartmental Purchase Requests at Washington Headquarters
Service,” June 19, 2002

DoD IG Report No. D-2002-109, “Army Claims Service Military
Interdepartmental Purchase Requests,” June 19, 2002




                                 17 

Appendix C. Glossary of Technical Terms 

   Antideficiency Act Violation. The Antideficiency Act is codified in a number of
   sections of title 31 of the United States Code (such as 31 U.S.C. 1341(a), 1342,
   1349, 1350, 1351, 1511(a), 1512, 1513, 1514, 1515, 1516, 1517, 1518, and 1519).
   The purpose of these statutory provisions, known collectively as the
   Antideficiency Act, is enforcing the constitutional powers of the purse residing in
   Congress with respect to the purpose, time, and amount of expenditures made by
   the Federal Government. Violations of other laws may create violations of the
   Antideficiency Act provisions (for example, the “Bona Fide Needs Rule,”
   31 U.S.C. 1502(a)).

   Appropriations. An appropriation is a provision of legal authority by an act of
   the Congress that permits Federal agencies to incur obligations and to make
   payments out of the Treasury for specified purposes. An appropriation usually
   follows enactment of authorizing legislation. An appropriation act is the most
   common means of providing budget authority. Appropriations do not represent
   cash actually set aside in the Treasury for purposes specified in the appropriation
   act; they represent limitations.

   Direct Citation Procurement. Direct citation procurement refers to procurement
   accomplished by combining the requirements of one or more other DoD
   Components with those of the procuring DoD Component. The procuring DoD
   Component may issue one contract with separate schedules showing the
   quantities, prices, dollar amounts, and citation of funds of each requiring DoD
   Component. The direct citation order is recorded as an obligation by the
   requiring DoD Component when it is notified in writing that the procuring DoD
   Component’s contract or project order has been executed, or when a copy of the
   contract or project order is received.

   Economy Act. The Economy Act authorizes agencies to enter into mutual
   agreements to obtain supplies or services by interagency or intra-agency
   acquisition. The Economy Act applies when a more specific statutory authority
   does not exist.

   Economy Act Orders. Each Economy Act order must be supported by a
   Determination and Findings. The Determination and Findings must state that the
   use of an interagency acquisition is in the best interest of the U.S. Government
   and the supplies or services cannot be obtained as conveniently or economically
   by contracting directly with a commercial enterprise. A contracting officer of the
   requesting agency with authority to contract for the supplies or services to be
   ordered, or another official designated by the agency head must approve the
   Determination and Findings.

   Expired Appropriation. An expired appropriation is budget authority whose
   period of availability for incurring new obligations has expired but the
   appropriation is not closed or canceled. During this period, the appropriation is
   available for adjustment to, or payment of, existing obligations. Appropriations
   remain in an expired status for 5 years. At the end of the 5-year expiration period,



                                        18 

the appropriation is closed or canceled and is no longer available for the payment
of unliquidated (undisbursed) obligations.

Interservice Support. Interservice support is support provided by one DoD
activity to a DoD activity of another Military Service, Defense Agency, Unified
Combatant Command, Army Reserves, Navy Reserves, Air Force Reserves,
Marine Corps Reserves, Air National Guard, or Field Activity.

Intragovernmental Support. Intragovernmental Support is support provided by
a DoD organization to a non-DoD Federal organization and vice versa. It does
not include support provided to or received from foreign governments.

Military Interdepartmental Purchase Request (MIPR). A MIPR is an order
issued by one Military Service to another to procure services, supplies, or
equipment for the requiring service. The MIPR, (DD Form 448), may be
accepted on a direct citation or reimbursable basis. It is an “Economy Act”
(31 U.S.C. 1535) order subject to downward adjustment when the obligated
appropriation is no longer valid for obligation.

Obligations. Obligations are amounts of orders placed, contracts awarded,
services received, or similar transactions made by Federal agencies during a given
period, which will result in outlays during the same or some future period.

Operation and Maintenance (O&M) Funds. Expenses incurred in continuing
operations and current services are budgeted with O&M appropriations. The
DoD Comptroller considers all modernization costs under $250,000 to be
expenses, as are one-time projects such as developing planning documents and
conducting studies. O&M funds are available for obligation for 1 year.

Reimbursable Procurement. Reimbursable procurement refers to an order for
supplies, material, or equipment placed by a requiring DoD Component (a) for
procurement by another DoD Component or Federal agency on a contract funded
by the procuring DoD Component or Federal agency; and (b) with subsequent
delivery to and reimbursement by the requiring DoD Component. The
reimbursable order is recorded as an obligation by the requiring DoD Component
when the procuring DoD Component accepts the reimbursable order in writing.

Research, Development, Test, and Evaluation (RDT&E) Funds. DoD
organizations fund development, test, and evaluation requirements, including
designing prototypes and processes, with RDT&E appropriations. DoD
organizations use RDT&E funds to develop major system upgrades, to purchase
test articles, and to conduct developmental testing and initial operational testing
and evaluation before they accept systems and have them produced. In general,
RDT&E funds should be used for all developmental activities involved with new
systems or major upgrades. RDT&E funds are available for obligation for
2 years.

Support Agreement. A support agreement is an agreement to provide recurring
support to another DoD or non-DoD Federal activity. Support agreements are
recorded on a DD Form 1144, “Support Agreement,” or similar format. It defines
the support to be provided by one supplier to one or more recipients and specifies


                                     19 

the basis for calculating reimbursement charges (if any) for each service,
establishes the billing and reimbursement process, and specifies other terms and
conditions of the agreement.

Agency Agreements. Section 1535, title 31, U.S.C. 1535, “Agency Agreements,”
allows the head of an agency or major organizational unit within an agency to
place an order with another agency for goods or services if amounts are available,
it is in the best interest of the U.S. Government, the other agency can fill the
order, and the order cannot be provided by contract as conveniently or
economically by a commercial enterprise.

DoD Policy on Interagency Agreements. DoD Instruction 4000.19,
“Interservice and Intragovernmental Support,” August 9, 1995, implements
policies, procedures, and responsibilities for intragovernmental support as a result
of agreements among Federal Government activities. DoD organizations may
enter into interagency agreements with non-DoD Federal activities when funding
is available to pay for the support, the agreement is in the best interest of the
Government, the supplying activity is able to provide the support, the support
cannot be provided as conveniently or economically by a commercial enterprise,
and the agreement does not conflict with any other agency’s authority.
Determinations must be approved by the head of the major organizational unit
ordering the support and must be attached to the agreement.




                                     20 

Appendix D. MIPRs Reviewed

Outgoing MIPRs

                         Missile Defense Agency
    MIPR No.       MIPR Value    Initiation  Preparation                                                                                                                                                    Execution




                                                                           No Determination & Findings, Memorandum
                                                                           for the Record, or Support Agreements




                                                                                                                                                                                                                                                     Untimely/Unauthorized Deobligation
                                        No Market Research Documentation




                                                                                                                                                                                                Untimely/Invalid Commitments
                                                                                                                     Delivery Requirements




                                                                                                                                                                        Segregation of Duties



                                                                                                                                                                                                                               Untimely Obligation
                                                                                                                                              Fiduciary Authority




                                                                                                                                                                                                                                                                                          Disbursements
BMDO0144550727         $6,910,000   X                                            X                                   X                       X                      X                                                          X                                                          X
BMDO0146885386           $834,000   X                                            X                                   X                       X                      X                                                          X                                                          X
BMDO0146945537           $122,315   X                                            X                                   X                       X                      X                                                          X                                                          X
BMDO0107423288           $400,000   X                                            X                                   X                       X                                                                                                                                            X*
BMDO0135996294             $7,273   X                                            X                                   X                       X                      X                                                                                X                                    X*
BMDO0137248997           $179,000   X                                            X                                   X                       X                      X                                X                         X                                                          X*
BMDO0147236332           $300,000   X                                            X                                   X                       X                                                                                                                                            X*
BMDO0135846073             $7,316   X                                            X                                                           X                      X                                                                                X                                    X
BMDO0144300242           $274,050   X                                            X                                   X                       X                      X                                                          X                                                          X
BMDO0134523579           $320,000   X                                            X                                   X                       X                      X                                                                                X                                    X
BMDO0146945535         $3,225,000   X                                            X                                   X                       X                                                                                 X                                                          X*
BMDO0156091468         $2,921,449   X                                            X                                   X                       X                                                                                                                                            X
BMDO0134904232           $288,000   X                                            X                                                           X                                                                                 X                                                          X
BMDO0147025887         $5,002,999   X                                            X                                                           X                                                                                 X                     X                                    X
BMDO0125289405          $100,000    X                                            X                                   X                       X                      X                                X                         X                                                          X
BMDO0137449257         $1,240,000   X                                            X                                                           X                                                                                 X                                                          X
BMDO0127572744            $78,317   X                                            X                                                           X                      X                                                          X                     X
BMDO0137178900           $200,000   X                                            X                                                           X                      X                                                                                                                     X
BMDO0155049539            $75,000   X                                            X                                   X                       X                                                                                                                                            X
MD5081468PO267            $35,000   X                                            X                                   X                       X                                                                                                                                            X*
BMDO0134213065         $1,215,616   X                                            X                                   X                       X                      X                                                          X                                                          X
BMDO0145262145           $215,167   X                                                                                X                       X                      X                                                                                                                     X*
BMDO0146925473         $3,814,000   X                                                                                X                       X                                                                                                                                            X
BMDO0154137404           $173,900   X                                             X                                  X                       X                                                                                                                                            X*
       24             $27,938,402       24                                         22                                18                      24                     13                               2                         12                                   5                     23
“X” indicates that the MIPR was deficient in the stated area. 

“*” indicates that DFAS provided audit information and documentation untimely. 



                                                                                                         21
Incoming MIPRs 


                   Missile Defense Agency
    MIPR No.        MIPR Value             Acceptance                                                                 Administration




                                    No Required Justification Documents

                                                                          Incorrect Use of MIPRs




                                                                                                                                                                   Reimbursable Billing
                                                                                                                                           Formal Acceptance
                                                                                                                       Timely Acceptance
                                                                                                   Incomplete Forms



F3RTE05188G007          $246,098                                                                                      X
DWAM40227              $4,000,000   X
PBAM50010               $906,660       X
05-D572                $1,260,369   X                                                              X
MIPR4MGYR40142            $2,500    X                                     X                                                                                    X
NMIPR059800113          $200,721    X                                                                                 X
MIPR3188049274           $32,300    X                                                                                 X
LO5G3A15F051MP          $300,000    X                                                              X
NMIPR59800160           $405,000      X                                                                               X
F3RTE05305G002          $364,000    X                                                                                 X
F1AF1W5314GV01          $290,000    X
N000SY04730023          $400,000    X
F3LFF6523G001           $510,000    X
W31RY042598981            $2,000    X                                     X                                                                X                   X
NNJO4HI52I               $90,000      X                                                             X                 X                                        X
MIPR4MOPSD2180            $1,710    X                                     X                                                                                    X
DWAM50232                $50,000    X                                                              X                  X
FA8750MIPR5062         $24,592.32   X                                                              X
4Y-4-PAC974Y          $12,300,000   X                                                              X                  X
MIPR4PEAR304            $150,000      X                                                                               X
H98230-RA06-3021        $745,000    X
NNH05AA9OI              $100,000    X                                                                                                                          X
4Y5PACA01Y            $10,000,000     X                                                                                                    X
          23         $32,380,950    22                                    3                        6                  9                    2                   5




                                                                                          22 

Appendix E. MIPRs Fund Citation

Outgoing MIPRs

                                                   Reimbursable
     MIPR No.    MIPR Value          Direct Cite       Cite
BMDO0144550727       $6,910,000          X
BMDO0146885386        $834,000           X
BMDO0146945537        $122,315           X
BMDO0107423288        $400,000                          X
BMDO0135996294          $7,273           X
BMDO0137248997        $179,000                          X
BMDO0147236332        $300,000                          X
BMDO0135846073          $7,316           X
BMDO0144300242        $274,050           X
BMDO0134523579        $320,000                          X
BMDO0146945535       $3,225,000                         X
BMDO0156091468       $2,921,449                         X
BMDO0134904232        $288,000           X
BMDO0147025887       $5,002,999          X
BMDO0125289405        $100,000           X
BMDO0137449257       $1,240,000          X
BMDO0127572744         $78,317           X
BMDO0137178900        $200,000                          X
BMDO0155049539         $75,000           X
MD5081468PO267         $35,000           X
BMDO0134213065       $1,215,616          X
BMDO0145262145        $215,167           X
BMDO0146925473       $3,814,000                         X
BMDO0154137404        $173,900                          X
         24         $27,938,402          15             9




                              23 

Incoming MIPRs 


                                                         Reimbursable
      MIPR No.     MIPR Value              Direct Cite       Cite
F3RTE05188G007          $246,098               X

DWAM40227              $4,000,000              X

PBAM50010               $906,660               X

05-D572                $1,260,369              X

MIPR4MGYR40142            $2,500                              X

NMIPR059800113          $200,721               X

MIPR3188049274           $32,300               X

LO5G3A15F051MP          $300,000               X

NMIPR59800160           $405,000               X

F3RTE05305G002          $364,000               X

F1AF1W5314GV01          $290,000               X

N000SY04730023          $400,000               X

F3LFF6523G001           $510,000               X

W31RY042598981            $2,000                              X

NNJO4HI52I               $90,000                              X

MIPR4MOPSD2180            $1,710                              X

DWAM50232                $50,000               X

FA8750MIPR5062         $24,592.32              X

4Y-4-PAC974Y          $12,300,000              X

MIPR4PEAR304            $150,000               X

H98230-RA06-3021        $745,000               X

NNH05AA9OI              $100,000                              X

4Y5PACA01Y            $10,000,000              X
          23          $32,380,950              18             5




                                    24 

Appendix F. Summary of Management
            Comments on the Finding and Audit
            Responses
   Executive Director of the Missile Defense Agency Comments on
   Appropriation Classification and Audit Response. The Executive Director
   nonconcurred with the Appropriation Classification finding that stated MDA
   might have violated the Antideficiency Act when it used RDT&E funds to
   execute a MIPR citing O&M funds. She stated that the MIPR transaction was
   consistent with DoD FMR and Section, 2205, title 10, United States Code,
   “Reimbursements,” and, therefore, did not constitute a potential ADA violation.

   Audit Response. The audit team has removed the section from the report in
   response to management comments and further analysis by OIG legal staff.

   Executive Director of the Missile Defense Agency Comments on Economy
   Act Transactions and Audit Response. The Executive Director was unable to
   concur with all the factual assertions presented in the report. She stated that the
   requirements for Economy Act order transactions are different depending on
   whether the servicing agency is a DoD Component or a non-DoD Federal entity.
   She feels the draft report describes discrepancies in a broad manner and does not
   address the differing requirements. However, she acknowledged that, for the
   MIPRs reviewed, the processes were not fully developed or implemented to
   document that MDA had positive control and accounted for both incoming and
   outgoing MIPRs throughout their lifecycle.

   Audit Response. The audit team does not agree with the Executive Director’s
   position on the factual assertions in the report. We based the audit conclusions on
   statutory and regulatory requirements applicable for every MIPR. The audit team
   also factored in the distinction of DoD versus non-DoD transactions when
   determining applicable requirements. For example, MDA personnel identified all
   24 outgoing MIPRs as Economy Act orders; however, the audit team reclassified
   2 MIPRs issued to the Department of the Interior and the General Services
   Administration as non-Economy Act orders and excluded them from the D&F
   deficiency list.




                                        25 

Summary of Executive Director of the Missile Defense Agency Comments on
Market Research and Audit Response.

The report implies that market research is required for all acquisitions although
FAR part 10 states that market research will be conducted as appropriate to the
circumstances, and does not require it for acquisitions under the simplified
acquisition threshold, except in limited circumstances. However, Appendix D
identifies deficiency in market research for all MIPRs evaluated, including
five MIPRs that fell under the simplified acquisition threshold.

Audit Response. According to FAR 17.503, each Economy Act order must be
supported by a D&F that states that the supplies or services cannot be obtained as
conveniently or economically by contracting directly with a private source. The
audit team believes that the only way the determination can be made is through
conducting market research. Therefore, the audit team considers Economy Act
orders as one of circumstances in which market research is required for
acquisitions under the simplified acquisition threshold.

MDA Comment. The draft report suggests that MDA should have performed
market research prior to placing orders for support or services; however, many of
MDA’s MIPRs are related to securing research assistance from Federally funded
research and development centers, which do not compete with private industry
and have their own ordering procedures.

Audit Response. According to FAR subpart 7.1, the purpose of market research
is to promote and provide for acquisition of commercial items and full and open
competition. When acquisitions are other than full and open competition
(not competing with private industry), FAR subpart 6.3 requires a documented
justification. However, MIPR files provided to the audit team for review did not
contain a D&F, a justification, or evidence of market research.

MDA Comment. It is not clear that the requiring agency is responsible for
market research and market research is conducted based on the level considered
adequate for the acquisition.

Audit Response. FAR Part 10 states that the objective of market research is to
select the most suitable approach to acquire, distribute, and support supplies and
services. The objective is accomplished through identifying legitimate needs,
evaluating trade-offs of sources, and using market research to determine which
sources satisfy the agency’s requirements. The audit team believes that those
responsibilities fall under the project office of the requesting agency rather than
the servicing agency.

MDA Comment. The Executive Director requested the audit team to revise the
statement of “market research is not done” to “market research is not repeated”
for recurring orders.

Audit Response. For recurring orders, the audit team was not able to verify that
market research was done for initial orders because MDA personnel could not
provide evidence. Therefore, the audit team cannot revise the statement.



                                     26 

Executive Director of the Missile Defense Agency Comments on a
Determinations and Findings and Audit Response. The Executive Director
stated that the draft report suggest that a D&F is required to support the agency
determination. She stated DoDIG interpretation runs counter to the express
provisions of DFARS 217.500, “Interagency Acquisitions Under the Economy
Act,” March 1999. DFARS 217.500 provides that DoD Instruction 4000.19,
“Interservice and Intragovernmental Support,” August 1995, applies to all
purchases, except micro-purchases made for DoD by another agency.
Furthermore, DoD Instruction 4000.19, states that these determinations are
signified by a support agreement and that no further written determinations are
necessary for interservice support.

Audit Response. The report does not state anything contrary to the comments.
Therefore, the audit team reiterates that FAR subpart 17.5 states that a D&F is
required to support each Economy Act order that uses interagency support
capabilities. For interservice support, a signed support agreement documents the
required determination by both the requesting and supplying activity in
accordance with DoD FMR, volume 11A, chapter 3.

Executive Director of the Missile Defense Agency Comments on Delivery
Requirements and Audit Response. The Executive Director stated that the draft
report suggests that, as required by 31 U.S.C. 1501, all interdepartmental
purchase requests require the use of a DD Form 448. However, the statute only
requires some written documentation, not the use of the DD Form 448. She stated
that the FAR and DoD FMR both provide guidance to the contrary. FAR 17.504
states that Economy Act orders may be placed on any form that is acceptable to
both agencies and, similarly, the DoD FMR states that Economy Act orders may
be placed on any form that is acceptable to both the requesting and servicing
agencies. Furthermore, she stated that the report refers the reader to
DFARS 253.208 for its discussion of MlPR requirements. However, that
provision indicates that MlPRs are to be used as specified in DFARS 208.70,
“Coordinated Acquisition,” a DoD program that appears inapplicable to these
circumstances.

Audit Response. The audit team disagrees that the report suggested that
interdepartmental purchase request require the use of DD Form 448. During the
audit, the audit team noted that some agencies such as NASA used a form other
than DD Form 448; however, the report did not raise the use of other forms as a
deficiency. However, when a DD Form 448 was used to place an order, the audit
team evaluated whether required elements of the form were properly stated in
accordance with DFARS 253.208, which DoD FMR recognizes as the guidelines
for DD Form 448 used for Economy Act orders. Furthermore, 31 U.S.C. 1501
requires that agencies base obligations on goods and services to be delivered
during the period of appropriation or fund available for obligation. Therefore, the
audit team considers delivery requirements as a critical element of the MIPR that
needs to be clearly documented.

Executive Director of the Missile Defense Agency Comments on Delegation
of Fiduciary Authority and Audit Response. The Executive Director stated
that the audit team should delete the sentence that states, “without fiduciary
authority, the MlPR and amendments procurement funds are not chargeable.”


                                     27 

She further states that the report contains an assertion that the MlPRs are not
properly chargeable in the absence of written delegations. Although this assertion
identifies an area in which MDA might strengthen its processes, it need not, and
should not, be read to suggest that the transactions are invalid.

Audit Response. The audit report referred to a funds certifying official as an
individual who has the authority to administer funds and who certifies the “fund
availability” for a MIPR—not the “payment.” The individuals also certify fund-
related data on the DD Form 448 (such as the fund cite chargeable) by signing the
MIPR. The audit team based the audit conclusions on the DoD FMR which states
that a MIPR must be signed by a person authorized to reserve funds, that is,
officials responsible for administrative control of funds, and the authority must be
in writing. Although the MIPRs were executed as valid after the fact; the audit
team holds its position that signatures of individuals without proper authority do
not constitute valid certification and, therefore, the MIPRs are not validly
chargeable to the fund cite stated in the MIPR. The audit team did not assess the
Defense Joint Accounting System but observed a digital signature of a certifying
official on the Fund Certification Request form although that name was not on the
list of certifying officials provided to us. The audit team brought the issue
forward so that MDA can strengthen controls over funds as it began corrective
actions by issuing a written designation for the Accountable Official and the
Authorizing Official.

Executive Director of the Missile Defense Agency Comments on Segregation
of Duties and Audit Response. The Executive Director stated the draft report as
written, was more restrictive than the OMB Circular A-123 requires. She stated
an examination of the circular discloses that there is a separation among separate
personnel with authority to authorize a transaction, process the transaction, and
review the transaction.

Audit Response. The audit team revised the section of the report to reflect three
categories stated in the management comments. However, this does not change
the audit team’s position. In the review, the audit team found that MDA did not
comply with its own Fund Certification Request process.

Executive Director of the Missile Defense Agency Comments on Use of
MIPRs and Audit Response. The Executive Director stated that it is unclear
why the DoD Office of Inspector General apparently believes that the employees
in question should not have received the performance awards earned at their prior
agencies, or what mechanism would have been more appropriate to accomplish
that payment. She also stated that all of MDA employees as well as these
individuals are paid from RDT&E appropriations. The funds from the prior
employer were to defray the cost of those earned awards, which MDA paid on
their behalf.

Audit Response. The report does not suggest that the employees should not have
received the performance awards but addresses the use of the MIPR instrument
under the Economy Act and the reimbursable authority. The audit team
considered the use of the MIPRs for employee awards inappropriate. During our
audit, MDA personnel stated that 31 U. S. C. 1535 and 10 U. S. C. 2205 were the
statutory authorities for the three MIPRs of concern. Section 2205, U.S.C.,


                                     28 

title 10 states that reimbursements made under the Economy Act for services
rendered or supplies furnished, may be credited to authorized accounts. Pursuant
to the statute, DoD FMR authorizes crediting reimbursements to the appropriation
or fund of the activity performing the reimbursable work. DoD Instruction
4000.19 states that support is reimbursable to the extent that the servicing agency
actually incurred costs to provide the goods or services requested. In addition,
DoD FMR, volume 11A, chapter 3, states actual costs include all direct costs
attributable to providing the goods or services. Because the MIPRs were not
associated with costs of any reimbursable work MDA performed for the
requesting activity, the audit team believes that the MIPRs did not fall under the
Economy Act orders or the reimbursable authority. Taking administrative work
and costs into account, therefore; the audit team suggested that direct pay would
have been an appropriate method of paying the performance awards.

Executive Director of the Missile Defense Agency Comments on
Reimbursable Billing and Audit Response. The Executive Director stated that
the audit team should delete the paragraph “Reimbursable Billing.” She stated
that the invoices to support incoming MlPRs obligated on MDA contracts are
permanently filed within the Wide Area Work Flow; therefore, there is no need to
file a copy of each invoice with each funding document on the contract.
Additionally, for the performance awards there are no invoices—the
disbursements are made based on the validity of the MIPR.

Audit Response. The report lists invoices only as an example of source
documents that should support reimbursable billing. DoD Instruction 4000.19
states that support is reimbursable to the extent that the servicing agency actually
incurred costs to provide the goods or services requested. And, according to the
DoD FMR, actual costs include all direct costs attributable to providing the goods
or services. DoD FMR also requires that reimbursable billings identify costs by
each item listed in the Economy Act order. Based on the regulations, the audit
team believes that MDA, as the performing activity, should keep track of actual
costs incurred for reimbursable work and support the costs with documentary
evidence, i.e. source documents. The audit team also finds it contrary to the DoD
FMR that the disbursements for the performance awards were made based on the
validity of the MIPR, which is merely a commitment document. Therefore, the
audit team did not remove this section from the report.




                                     29 

Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Other Defense Organizations
Director, Missile Defense Agency
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
  and Government Reform




                                          30 

Missile Defense Agency Comments 



                                                    D E P A R T M E N T OF DEFENSE 

                                                      MISSILE DEFENSE AGENCY 

                                                        7100 DEFENSE P E N T A G O N
                                                      W A S H I N G T O N , DC 20301-7100
     DO                                                                                                                      JUN 27 2007



     M E M O R A N D U M FOR PROGRAM DIRECTOR, DEFENSE FINANCIAL AUDITING
                               S E R V I C E , D E P A R T M E N T OF D E F E N S E , O F F I C E O F
                               INSPECTOR GENERAL

     S U B J E C T : M i s s i l e D e f e n s e A g e n c y C o m m e n t s o n Draft o f a P r o p o s e d R e p o r t ,
                     " M i s s i l e D e f e n s e A g e n c y P u r c h a s e s for a n d from G o v e r n m e n t a l S o u r c e s " ,
                     J u n e 1, 2 0 0 7 , P r o j e c t N o . D 2 0 0 6 F H - 0 1 6 0

                   T h e M i s s i l e D e f e n s e A g e n c y ( M D A ) a p p r e c i a t e s the c h a n g e s y o u m a d e to the
     s u b j e c t report as a result o f o u r p r i o r c o m m e n t s o n t h e D i s c u s s i o n Draft dated M a r c h 2 1 ,
     2 0 0 7 , o u r d i s c u s s i o n on A p r i l 3 , 2 0 0 7 , a n d further c o m m e n t s on the s e c o n d D i s c u s s i o n
     Draft d a t e d A p r i l 19, 2 0 0 7 . M D A r e m a i n s c o n c e r n e d , h o w e v e r , a b o u t t h e factual c o n t e n t
     and c o n c l u s i o n s in t h e Draft R e p o r t , p a r t i c u l a r l y t h e u n s u p p o r t e d s u g g e s t i o n t h a t there
     m a y b e a p o t e n t i a l Anti D e f i c i e n c y A c t v i o l a t i o n . In a d d i t i o n , t h e D r a f t R e p o r t docs not
     yet t a k e a c c o u n t o f t h e fact t h a t t h e r e a r c different r e q u i r e m e n t s for E c o n o m y A c t a n d
     N o n - E c o n o m y A c t t r a n s a c t i o n s or that t h e r e q u i r e m e n t s differ d e p e n d i n g on w h e t h e r t h e
     o t h e r a g e n c y i n v o l v e d is D o D o r N o n - D o D . T o t h e extent that t h e Draft R e p o r t still
     c o n t a i n s m a t t e r s t o w h i c h we h a v e o b j e c t e d in o u r p r i o r c o m m e n t s , M D A r e a s s e r t s t h o s e
     o b j e c t i o n s for c o n s i d e r a t i o n in p r e p a r i n g t h e Final Report,


                I h a v e i n c l u d e d in A t t a c h m e n t s 1 a n d 2 , additional c o m m e n t s o n t h e
     D r a f t R e p o r t and its r e c o m m e n d a t i o n s for y o u r c o n s i d e r a t i o n .

                  M y p o i n t o f c o n t a c t for this a c t i o n is M r . M i r z a B a i g , A s s i s t a n t D i r e c t o r , P r o g r a m
     L i a i s o n , at ( 7 0 3 ) 6 9 2 - 6 5 3 8 .




                                                                        PATRICIA SANDERS
                                                                        Executive Director

     Attachment:
     A s Stated




                                                                        31
                                                                                                                                                      Final Report
                                                                                                                                                       Reference



                              MDA COMMENT INCORPORATION SUMMARY - Draft Report MIPR Audit


     TITLE OF DOCUMENT                                               DATE OF DOCUMENT
     D o D IG Draft Report, Project # D2006-FH-0160,                                              June 1, 2 0 0 7
     (Missile Defense Agency Purchases for and from
     Governmental Sources)




     ITEM     PAGE    PARA.     RECOMMENDED CHANGES
      NO.      NO.      NO.


                                                              SIGNIFICANT/CRITICAL COMMENTS
                                                                                                                                                      Deleted and.
        1                       The facts do not present even the potential for an Anti Deficiency Act violation. The incoming MIPR in                Revised
                                question was for a performance award from a previous employer to an individual who had recently begun
                                employment with MDA. MDA is almost exclusively funded with RDT&E and funds all of its "O&M" activities
                                                                                                                                                      Pg 22
                                with RDT&E. The DoD FMR recognizes this. See Vol 2A, Chapter 1, paragraph 010213(C)(1)(c): "Expenses
                                of R&D management and administrative organizations at major systems commands, headquarters
                                organizations and administrative organizations at DoD component departmental headquarters Levels (except
                                for the Defense Advanced Research Projects Agency and the Missile Defense Agency) will be financed in the
32                              Operation and Maintenance (O&M) appropriations." MDA's budget is submitted to, and approved by, the
                                Department and the defense committees on this basis. Further, 10 USC 2205 provides statutory authority to
                                credit reimbursements received to authorized appropriations. With respect to having funds available, M D A
                                had, in sufficient amounts, both the funds sent to us from the previous employer and our own RDT&E
                                appropriation. Both were appropriate for this expenditure. And finally, w e note that purpose Of this
                                transaction did not involve any attempt to circumvent fiscal restrictions. The sole objective was to permit the
                                previous employer to fund performance awards related to work at the previous employer. Given these facts,
                                MDA does not concur with the suggestion in the Draft Report that our receipt of a MIPR with O&M funds to
                                reimburse MDA's RDT&E appropriation for a valid disbursement constituted a potential statutory violation.




                                                                                                                          Attachment 1: Page 1 of 5
                        MDA COMMENT INCORPORATION SUMMARY ­ Draft Report MIPR Audit
ITEM   PAGE   PARA.       R E C O M M E N D E D CHANGES
 NO.   NO.        NO.

 2                        The requirements are complex and differ between Economy Act transactions and non-Economy Act
                          transactions. The requirements for Economy Act transactions are different depending on whether the
                          servicing agency is a DoD component or a non-DoD federal entity. A s written, the Draft Report describes
                          discrepancies in a broad manner and does not address the differing requirements. A s a result, MDA is
                          unable to concur with all of the factual assertions presented in the report. MDA does acknowledge that,
                          during the time period o f the actions associated with the MIPRs included in the review, processes were not
                          fully developed o r implemented to adequately document that MDA had positive control over, and accounted
                          for, both incoming and outgoing MIPRs throughout their lifecycle.


                          MDA efforts are already underway to develop standard operating procedures and internal controls to address
                          the weaknesses identified with MDA's MIPR process. MDA intends to implement these procedures upon
                          issuance o f the revised MDA Instruction 7200.01, Funds Authorization Process. The Instruction is currently in
                          coordination. Work is also underway on the issuance o f the new MDA Directive on Support Agreements,
                          which is also in coordination.

 3      4     2               1.   The report, a s written, implies that market research is required for all acquisitions. FAR Part 1 0 

                                   states that market research will be conducted a s appropriate to the circumstances, and does not 

                                   require it for acquisitions under the simplified acquisition threshold except in limited circumstances. 

                                   Appendix Dt o the report indicates deficiency in market research for all MIPRs evaluated, including a 

                                   number under the simplified acquisition threshold. 


                              2.	 The Draft Report suggests that MDA should have performed market research prior to placing orders
                                  for support or services. But many o f MDA's MIPRs are related to securing research assistance from
                                  Federally Funded Research and Development Centers, which do not compete with private industry,
                                  and have their own ordering procedures.

                              3.   According to FAR part 17.504, "(d)(3) The servicing agency is responsible for compliance with all
                          other       legal or regulatory requirements applicable to the contract, including:

                                   (i) having adequate statutory authority for the contractual action, and
                                   (ii) complying fully with the competition requirements of Part 6 (see 6.0021. However, if the servicing
                                   agency is not subject to the Federal Acquisition Regulation, the requesting agency shall verify that
                                   contracts utilized to meet its requirements contain provisions protecting the Government from
                                   inappropriate charges (for example, provisions mandated for FAR agencies by Part 31), and that
                                   adequate contract administration will be provided."

                              It is not clear that the requiring agency is responsible for market research. In addition, market research is
                              to be conducted based on the level considered adequate for the acquisition at hand. In the case o f very
                              small value MIPRs, a simple knowledge of the market may suffice.


                                                                                                                       Attachment 1 : Page 2 of 5
                     MDA COMMENT INCORPORATION SUMMARY ­ Draft Report MIPR Audit
ITEM    PAGE    PARA . R E C O M M E N D E D CHANGES
 NO .    NO .    NO.

  4       4     4        The Draft Report suggests that a D&F is required to support the agency determinations. But this
                         interpretation runs counter to the express provisions of DFARS 217.500 which provides that DoDI 4000.19
                         applies to all purchases, except micro-purchases made for DoD by another agency and DoDI 4000.19, para
                         4.3, which provides that these determinations are signified by signing a support agreement and that n o further
                         written determinations are necessary for interservice (support by one DoD component to another) support.

  5       5     3	       The Draft Report suggests that all interdepartmental purchase requests require use o f a D D Form 448 (MIPR) 

                         as required by 31 USC 1501 (the Recording Statute). But the statute requires only some written 

                         documentation, not use o f the MIPR form. And both the FAR and DoD FMR provide contrary guidance. FAR 

                         17.504(b) provides that Economy Act orders may be placed on "any form that is acceptable to both agencies. " 

                         Similarly, the DoD FMR provides, at Vol 11A , Ch 3, para 030501, that Economy Act orders may 'be placed on 

                         any form that is acceptable to both the requesting and servicing agencies. " 


                         Further, the report refers the reader to DFARS 253.208, for its discussion o f MIPR requirements. However,
                         that provision indicates that MIPRs are to b e used as specified in DFARS 208.70, "Coordinated Acquisition," a
                         DoD program that appears inapplicable to these circumstances.

  6       5     4            1.   The Draft Report contains an assertion that the MIPRs are not properly chargeable in the absence o f 

                                  written delegations to show the MDA personnel certifying the MIPRs had written authority. While this 

                                  assertion identifies a n area in which MDA processes might b e strengthened, it need not, and should 

                                  not, be read t o suggest that the transactions are invalid. 


                             2.	 Delete: Without fiduciary authority, the MIPR and amendments procurement funds are not
                                 chargeable.

                              Rationale: The responsibility o f the funds authorizing official o n MDA's funding request document is to
                             authorize commitments -a n administrative reservation of funds­ not t o certify payments. The term
                             "certifying officer"i n the DoD FMR refers to the person with authority to certify payments. At the time o f
                             the audit, MDA controlled signature authority within the Defense Joint Accounting System. Only
                             designated individuals with card-reader access could sign the funding request within DJAS on behalf o f
                             MDA.

  7       5     5	       The Draft Report indicates that "According to OMB Circular A-123, separation o f duties and responsibilities
                                                                                                                               A
                         must be maintained for initiating, authorizing, processing, recording, and reviewing transactions." n
                         examination o f the circular discloses that it calls for separate personnel with authority to authorize a
                         transaction, process the transaction, and review the transaction" (OMB Cir A-123, at page 8). As written, the
                         Draft Report may be more restrictive than the circular requires.




                                                                                                                      Attachment 1 : Page 3 of 5
                                                                                                                                                           Final Report
                                                                                                                                                            Reference



                              MDA COMMENT INCORPORATION SUMMARY ­ Draft Report MIPR Audit
     ITEM   PAGE    PARA.       RECOMMENDED CHANGES
      NO.    NO.     NO.

                                                                           MAJOR COMMENTS

      1      4           4	                                                                 t
                                In section "Market Research, " Change "researchi s not done" o "research is not repeated"

      2      9      3	          The report indicates that 2 2 MIPRs had neither a D&F nor Support Agreement, A s discussed above, a
                                Support Agreement may or may not be appropriate, depending on the circumstances.

      3      9      5	          It is unclear why the OIG apparently believes that the employees in question should not have received the
                                performance awards earned at their prior agencies, or what mechanism would have been more appropriate to
                                accomplish that payment. A s employees o f MDA, the individuals were paid from RDT&E appropriations, a s
                                are all MDA employees. The funds MIPRd from the prior employer were to defray the cost of those earned
                                awards, which MDA was asked to pay o n their behalf.

      4      10     5	          Delete paragraph "Reimbursable Billing"

                                Rationale: Invoices to support incoming MIPRs obligated on MDA contracts are permanently filed within
                                W A W F . There is no need to file a copy o f each invoice with each funding document on the contract. For the
                                incoming Reimbursable MIPRs for performance awards, there are n o invoices. The disbursements are made
35
                                based o n the validity o f the MIPR.




                    2
      5      11 	               Delete entire section "Appropriation Classification"
                                                                                                                                                           Deleted
                                Rationale: The incoming MIPR in question was for a performance award from a previous employer to a n 

                                individual who had recently begun employment with MDA. MDA is almost exclusively funded with RDT&E and 

                                funds all o f its "O&M "
type activities with RDT&E. The DoD FMR recognizes this. See Vol 2A, Chapter 1 ,

                                paragraph 010213(C)(1)(c): "Expenses o f R&D management and administrative organizations at major 

                                systems commands, headquarters organizations and administrative organizations at DoD component 

                                departmental headquarters levels (except for the Defense Advanced Research Projects Agency and the 

                                Missile Defense Agency) will be financed in the Operation and Maintenance (O&M) appropriations." MDA's 

                                budget is submitted to, and approved by, the Department and the defense committees o n this basis. Further, 

                                10 USC 2205 provides statutory authority to credit reimbursements received t o authorized appropriations. 

                                With respect to having funds available, MDA had, in sufficient amounts, both the funds sent to us from the 

                                previous employer and our own RDT&E appropriation. Both were appropriate for this expenditure. And 

                                finally, w e note that purpose o f this transaction did not involve any attempt to circumvent fiscal restrictions. 

                                The sole objective was to permit the previous employer to fund performance awards related to work at the 

                                previous employer. Given these facts, MDA did not violate the statutory limitation o n the purposes for which 

                                the RDT&E appropriation may b e used. 





                                                                                                                             Attachment 1 : Page 4 o f 5
                                                                                                                                                        Final Report
                                                                                                                                                         Reference



                            MDA COMMENT INCORPORATION SUMMARY ­ Draft Report MIPR Audit
     ITEM   PAGE   PARA .     RECOMMENDED CHANGES 

      NO.    NO.    NO. 

                                                                                                                                                        Deleted
                        2     "ADA Violation." -According to DoD IG report, MDA executed a MIPR valued a t $1,710 using a n RDT&E
      6      12
                              appropriation; however, the requesting agency funded the MIPR with an O&M appropriation. Also, the report
                              states that MDA interpretation would permit the DoD component to circumvent time and purpose limitations
                              imposed by the appropriation Acts. Therefore, DoD IG concluded that MDA made a n improper MIPR
                              transaction that may have resulted in an ADA violation because the purpose and the time limitations differ
                              between the two appropriations (Availability o f f u n d s - one year for O&M and two years for RDT&E). In this
                              instance, a s discussed above, there was no improper circumvention o f statute or regulatory limitations on the
                              expenditure o f the funds.



                                                                                                                                                        Deleted




      7

             12    3	         It is not clear how the report reaches the conclusion that MDA used RDT&E for a n improper purpose. A s
                              discussed above, MDA is funded for virtually all purposes, including personnel, in RDT&E. Congress and the
                              Department are well aware o f that situation and the MDA budget is approved with that understanding.

      8      14    2           Change to read "(2) that ensure the validity and accuracy o f incominq Military"

                               Rationale: MDA does not have access to the reimbursable billinqs or source documentation to support
ON                             receipt of ordered goods and services on outgoing MIPRs that are paid through IPAC. The activity
                               performing the service or providing the goods is responsible for maintaining that documentation.




                                                                                                                         Attachment 1:   Page 5 o f 5
                                                                                                                                                            Final Report
                                                                                                                                                             Reference




DoD IG D R A F T O F A P R O P O S E D R E P O R T , "Missile Defense Agency Purchases for and
        from Governmental Sources", June 1, 2007, Project No. D2006FH-0160

            Missile Defense Agency Additional Comments on DoD IG Recommendations



General Comments:

M D A has been developing standard operating procedures and implementing internal controls to
address the weaknesses identified in M D A ' s M I P R process. Standard operating procedures arc
being documented as a revision to M D A Instruction 7200.01, Funds Authorization Process.
Issuance of the revised Instruction is pending M D A coordination.



Recommendation l.a.
                                                                                                                                                            Renumbered
T h e D o D IG r e c o m m e n d e d that t h e D i r e c t o r , M i s s i l e D e f e n s e A g e n c y :
                                                                                                                                                            as Recom­
                                                                                                                                                            mendation 1.
a. D i r e c t t h e D e p u t y D i r e c t o r , B u s i n e s s M a n a g e m e n t t o d e v e l o p a n d p r o m u l g a t e s t a n d a r d
o p e r a t i n g p r o c e d u r e s that will i n c o r p o r a t e D o D F i n a n c i a l M a n a g e m e n t R e g u l a t i o n a n d
M i s s i l e D e f e n s e A g e n c y r e g u l a t i o n s for p r o c e s s i n g M i l i t a r y I n t e r d e p a r t m e n t a l P u r c h a s e
R e q u e s t s . T h e s t a n d a r d o p e r a t i n g p r o c e d u r e s s h o u l d at a m i n i m u m i n c l u d e p r o c e d u r e s
and controls:

           ( 1 ) S u c h as a c h e c k l i s t that e n s u r e s all r e q u i r e d d a t a a n d s u p p o r t i n g d o c u m e n t s a r c
developed and appropriately reviewed before a Military Interdepartmental Purchase
R e q u e s t is certified for i s s u a n c e or a c c e p t a n c e .

           (2) That ensure the validity and accuracy of Military Interdepartmental Purchase
R e q u e s t d i s b u r s e m e n t s a n d r e i m b u r s a b l e b i l l i n g s a r c verified a g a i n s t s o u r c e
d o c u m e n t a t i o n i n c l u d i n g s u p p o r t for t h e r e c e i p t o f o r d e r e d g o o d s a n d s e r v i c e s , a n d all
d o c u m e n t a t i o n is m a i n t a i n e d .

              ( 3 ) S u c h as d o c u m e n t a t i o n o f t h e receipt d a t e , that e n s u r e s t h e t i m e l i n e s s o f
o b l i g a t i o n s a n d a c c e p t a n c e s for all M i l i t a r y I n t e r d e p a r t m e n t a l P u r c h a s e R e q u e s t s , i s s u e d
and received.

            (4) T h a t e n s u r e r e c o r d e d c o m m i t m e n t s , o b l i g a t i o n s , a n d d e o b l i g a t i o n s a r e valid
and timely.

M D A Response to Recommendation l . a :

M D A concurs with the recommendation and is developing procedures and controls to ensure all
required data and supporting documents are developed and appropriately reviewed before a


                                                                                                                 Attachment 2: Page 1 of 4




                                                                        37
M I P R is authorized for issuance and documentation is appropriately maintained.       Process
improvements include:

    •	   MIPRs arc processed and coordinated within the M D A ' s Command Information
         Management System (CIMS) database. A M I P R document is systematically generated
         by C I M S only when required fields and signatures are populated.

    •	   Signature authority is controlled by C I M S so that Individuals authorized to commit funds
         and sign MIPRs on behalf o f MDA have been issued written delegation o f authority, and
         the delegation of authority letters are maintained in a database by M D A / D O B X , Access
         to C I M S is controlled via the C o m m o n Access Card.

    •	   M D A Competition Advocate review and coordination is now required for all M I P R s
         issued to another activity to acquire supplies or services through a contract vehicle to
         ensure proper evidence of market research and other supporting documentation to ensure
         consistency with prescribed regulations and policies governing full and open competition,
         acquisitions made under the authority of the Economy Act, and Non-DoD contract
         actions.

    •	   M D A Support Agreement Manager review and coordination is now required for all
         MIPRs procuring recurring reimbursable support from another activity to ensure support
         agreements and appropriate supporting documentation is in place prior to commitment of
         funds.

    •	   T h e D R A F T revision to M D A Instruction 7200.01 will contain a checklist of required
         data and supporting documentation to support all acquisitions.

    •	   M D A has instituted policy to require monthly financial reporting on all outgoing M I P R s
         so that disbursements can be verified. The monthly reports are maintained in the MIPR
         file and the final report is to be uploaded into the CIMS database at the time the M I P R is
         closed.

    •	   T o address untimely posting o f obligations for outgoing MIPRs, the C I M S database has
         been programmed to send an e-mail notification to the MIPR originator every 5 days until
         the signed MIPR acceptance (448-2) and obligating contract mod (for Direct Cite MIPRs)
         arc returned to MDA by the accepting activity. Upon receipt of a signed 448-2 and
         obligating mod, the MIPR originator is required to upload the documents and record the
         date of receipt into the appropriate fields in the C I M S . Once uploaded, C I M S
         automatically generates an e-mail notifying the M D A Accounting Operations Team that
         an obligation document is ready for posting to the accounting system.

    •	   T h e Period of Performance is now printed on every MIPR document and the Period of
         Performance is monitored within C I M S . At the end of each performance period, CIMS
         generates an e-mail notifying the MIPR originator that the MIPR requires reconciliation
         and closeout. This notification is retained in a C I M S Action Item folder for the MIPR




                                                                           Attachment 2: Page 2 of 4




                                                38 

                                                                                                        Final Report
                                                                                                         Reference




        originator until the MIPR is closed and the close-out date is entered into the appropriate 

        field in C I M S . 


   •	   For Incoming M I P R s , M D A has developed a separate Incoming MIPR Module in C I M S 

        to upload and coordinate incoming M I P R s and supporting documentation prior to 

        acceptance. 

            o	 Signature authority to accept an incoming MIPR. has been restricted to the 

                Director of Budget Execution and Funds Control, M D A / D O B X . 

            o	 Once acceptance of the MIPR is approved and electronically signed by 

                M D A / D O B X , CIMS generates the 448-2 and notifies the M D A analyst 

                responsible for the MIPR that the 448-2 is ready to be forwarded to the acquiring 

                activity. 

            o	 T h e responsible analyst is required to record, in C I M S , the date the 448-2 was 

                forwarded to the acquiring activity, 

            o	 T h e financial analyst is also required to monitor MIPR expenditures and close out 

                the MIPR at the end of the MIPR period of performance. 


Recommendation l . b : 	                                                                                Deleted
T h e D o D IG recommended that the Director, Missile Defense Agency:

Initiate preliminary reviews and possible corrective actions for Military Interdepartmental
Purchase Requests shown in Appendix D that potentially violated the Anti Deficiency Act as
defined by D o D Financial Management Regulation.

M D A Response to Recommendation l . b .

M D A non-concurs with this recommendation. M D A did not violate the statutory limitation on
the purposes for which an R D T & E appropriation m a y be used. Accordingly there is no potential
for a violation of the Anti Deficiency Act. T h e incoming MIPR in question w a s for a
performance award from a previous employer to an individual who had recently begun
employment with M D A . M D A is almost exclusively funded with R D T & E and funds all of its
" O & M " type activities with RDT&R. T h e D o D F M R recognizes this. Sec Vol 2A, Chapter 1,
paragraph 010213(C)(1)(c): "Expenses of R & D management and administrative organizations at
major systems c o m m a n d s , headquarters organizations and administrative organizations at DoD
component departmental headquarters levels (except for the Defense Advanced Research
Projects Agency and the Missile Defense Agency) will be financed in the Operation and
Maintenance ( O & M ) appropriations." M D A ' s budget is submitted to, and approved by, the
Department and the Defense committees on this basis. In addition, sufficient funds were
available from two different appropriations ( R D T & E and O & M ) to cover this obligation and
both were proper to the purpose for which the funds were used. Given these facts, M D A did not
violate the statutory limitation on the purposes for which the R D T & E appropriation m a y be used.

Further, 10 U S C 2205 provides statutory authority to credit reimbursements received to
authorized appropriations. With respect to having funds available, M D A had, in sufficient
amounts, both the funds sent to us from the previous employer and our o w n R D T & E



                                                                         Attachment 2: Page 3 of 4




                                               39 

appropriation. Both were appropriate for this expenditure. And finally, we note that purpose o f
this transaction did not involve any attempt to circumvent fiscal restrictions. T h e sole objective
was to permit the previous employer to fund performance awards related to work at the previous
employer. Given these facts, M D A does not concur with the suggestion in the Draft Report that
our receipt of a M I P R with O & M funds, to reimburse an expenditure of R D T & E funds,
constituted a potential statutory violation.




                                                                         Attachment 2 : Page 4 of 4




                                               40
Defense Finance and Accounting Service
Comments


                             D E F E N S E F I N A N C E A N D ACCOUNTING SERVICE
                                                            8899 EAST 56 TH STREET
                                                         INDIANAPOLIS, INDIANA 4 6 2 4 9                      JUN               29              JJR/IN




     M E M O R A N D U M FOR D I R E C T O R , D E F E N S E FINANCIAL A U D I T I N G S E R V I C E ,
                                 OFFICE O F T H E INSPECTOR GENERAL, D o D

     S U B J E C T : C o m m e n t s to R e c o m m e n d a t i o n N u m b e r 2 in t h e D o D I G Draft
                     Report/Project N o . D 2 0 0 6 - D 0 0 0 F H - 0 1 6 0 . 0 0 0



             A t t a c h e d a r e m a n a g e m e n t c o m m e n t s to R e c o m m e n d a t i o n N u m b e r 2 in the D o D I G
     Draft R e p o r t , " M i s s i l e D e f e n s e A g e n c y P u r c h a s e s for a n d from G o v e r n m e n t a l S o u r c e s " ,
     dated J u n e 1, 2 0 0 7 .

             Q u e s t i o n s y o u r staff m a y h a v e c o n c e r n i n g t h e s e matters m a y b e d i r e c t e d t o
     M s . A n i t a W h i t e at 3 0 3 - 6 7 6 - 4 2 1 5 .




                                                                      Director, C o r p o r a t e R e p o r t i n g
                                                                        Standards & Compliance



     Attachment:
     As stated




                                                                   www.dfas.mil
                                                             Your Financial Partner @ Work




                                                                      41 

  D F A S c o m m e n t s to D o D I G Draft Report, "Missile Defense A g e n c y P u r c h a s e s for
                    and from G o v e r n m e n t a l S o u r c e s " , d a t e d J u n e 1 , 2 0 0 7
                              (Project No. D2006-D000FH-0160.000)



R e c o m m e n d a t i o n 2: W e r e c o m m e n d that the D i r e c t o r , Defense F i n a n c e a n d
A c c o u n t i n g Service d e v e l o p p r o c e d u r e s and controls that e n s u r e the D e f e n s e
F i n a n c e a n d A c c o u n t i n g Service centers a n d field offices m a k e a u d i t i n f o r m a t i o n
and d o c u m e n t a t i o n r e a d i l y available for timely r e v i e w .

M a n a g e m e n t C o m m e n t s : C o n c u r . S t a n d a r d s and C o m p l i a n c e will e n s u r e audit
procedures a r c d e v e l o p e d that address d o c u m e n t a t i o n be retrieved in a t i m e l y m a n n e r .
T h e s e p r o c e d u r e s will include: 1) clarification o f expectations at the entrance conference
and s u b s e q u e n t m e e t i n g s r e g a r d i n g requirements and expectations for a u d i t o r r e q u e s t s , 2)
p r o v i d i n g points o f contact responsible for monitoring and executing r e q u e s t s , a n d 3)
c o m m u n i c a t i o n b e t w e e n auditors a n d auditees on a c c e p t a b l e timeframes for p r o v i d i n g the
requested information.

E s t i m a t e d C o m p l e t i o n Date:   D e c e m b e r 1, 2 0 0 7




                                                                 42
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Barbara A. Sauls
Monica M. Harrigan
Lily Y. Chen
Miwon Kim
Robert France
Carmen D. Chapa
Giormary P. Peluyera
Calvin G. Hursey
Damarus M. Sanders
Kandy T. Adams
